No. 19-392
IN THE

Supreme Court of the United States
____________________

MARTIN A. ARMSTRONG,
Petitioner,
v.
SECURITIES AND EXCHANGE COMMISSION, UNITED STATES
COMMODITY FUTURES TRADING COMMISSION, TANCRED
SCHIAVONI, IN HIS CAPACITY AS TEMPORARY RECEIVER,
AND THE UNITED STATES OF AMERICA,
Respondents.

____________________

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit

____________________

BRIEF IN OPPOSITION OF TEMPORARY
RECEIVER TANCRED SCHIAVONI

____________________

TANCRED SCHIAVONI
O’MELVENY & MYERS LLP
Times Square Tower
7 Times Square
New York, N.Y. 10036
(212) 326-2000

JONATHAN D. HACKER
(Counsel of Record)
jhacker@omm.com
ANNA O. MOHAN*
O’MELVENY & MYERS LLP
1625 Eye Street, N.W.
Washington, D.C. 20006
(202) 383-5300

*Admitted only in Virginia;
supervised by principals of the firm

Counsel for Temporary Receiver Tancred Schiavoni

i
QUESTION PRESENTED
Whether certiorari should be granted to address
two questions that:
• are irrelevant to the facts of the case as is conclusively established by factual findings affirmed on
appeal;
• were not properly preserved in the proceedings
below; and
• implicate no judicial conflict at all, much less a
conflict among federal circuit courts or state courts of
last resort.

ii
CORRECTION TO LIST OF PARTIES
The caption on the cover of the petition for a writ
of certiorari incorrectly identifies the respondent receiver as Alan M. Cohen. On July 16, 2019, the district court granted Cohen’s motion to withdraw as receiver and appointed Tancred Schiavoni as substitute
receiver. Order at 10, SEC v. PEIL, No. 99-cv-9667
(S.D.N.Y. July 16, 2019), ECF No. 533. The caption
of this brief has been corrected to identify Schiavoni
as receiver. The receiver has been a party to all proceedings below, including in the court of appeals,
where he briefed and argued the appeal.

iii
TABLE OF CONTENTS
Page
QUESTION PRESENTED ........................................ i
CORRECTION TO LIST OF PARTIES ................... ii
INTRODUCTION ..................................................... 1
STATEMENT OF THE CASE .................................. 2
A. Initiation Of Parallel Enforcement
Proceedings And Asset Freeze .................... 3
B. Administration Of The Receivership
And Interim Distribution ............................ 4
C. Guilty Plea And Settlement With
Agencies ....................................................... 6
D. Final Distribution And Settlement
With Receiver Waiving Petitioner’s
Claims To Receivership Assets ................... 7
E. Petitioner’s Access To Storage Lockers ...... 9
F.

The Decisions Below .................................. 10

REASONS FOR DENYING THE PETITION........ 12
I.

THIS CASE DOES NOT RAISE EITHER
OF THE QUESTIONS PRESENTED ............. 12

II. NEITHER QUESTION PRESENTED
WAS PROPERLY PRESERVED BELOW ...... 17
III. THERE IS NO RELEVANT JUDICIAL
CONFLICT ON EITHER QUESTION
PRESENTED ................................................... 20

iv
TABLE OF CONTENTS
(continued)

Page

IV. DISTRIBUTION OF RECEIVERSHIP
ASSETS WOULD NOT REMEDY THE
SIXTH AMENDMENT CLAIM
PETITIONER ASSERTS ................................. 24
CONCLUSION ........................................................ 25

v
TABLE OF AUTHORITIES
Page(s)
CASES
Armstrong v. Guccione,
470 F.3d 89 (2d Cir. 2006) ............................... 5, 6
CBOCS West, Inc. v. Humphries,
553 U.S. 442 (2008)............................................ 16
CFTC v. Walsh,
2010 WL 882875 (S.D.N.Y. Mar. 9,
2010) ................................................................... 22
Clingman v. Beaver,
544 U.S. 581 (2005)............................................ 18
Estate of Lott v. O’Neill,
165 A.3d 1099 (Vt. 2017) ..............................21, 23
Exxon Co. v. Sofec, Inc.,
517 U.S. 830 (1996)............................................ 16
FTC v. Johnson,
2015 WL 8751693 (D. Nev. Dec. 14,
2015) ................................................................... 22
Luis v. United States,
136 S. Ct. 1083 (2016)........................................ 13
SEC v. McGinn,
2012 WL 1142516 (N.D.N.Y. Apr. 4,
2012) ................................................................... 22
SEC v. PEIL,
84 F. Supp. 2d 443 (S.D.N.Y. 2000) .................... 4
United States v. Bonventre,
720 F.3d 126 (2d Cir. 2013) ............................... 22

vi
TABLE OF AUTHORITIES
(continued)

Page(s)

United States v. Feathers,
2016 WL 7337518 (N.D. Cal. Dec.
19, 2016) ........................................................22, 23
United States v. Hopkins,
920 F.3d 690 (10th Cir. 2019)............................ 25
United States v. Johnston,
268 U.S. 220 (1925)............................................ 16
United States v. Monsanto,
491 U.S. 600 (1989).......................................13, 14
United States v. Stitt,
139 S. Ct. 399 (2018).......................................... 18
United States v. Williams,
504 U.S. 36 (1992).............................................. 18

1
INTRODUCTION
Both Questions Presented in the petition for certiorari rest on the same twin premises, viz., the frozen
and seized assets at issue were owned by petitioner
and untainted by any criminal offenses. Both premises are unambiguously false. Factual findings controlling at this stage—but almost entirely unmentioned by petitioner—conclusively establish that the
assets were neither owned by petitioner nor untainted. Rather, the assets at issue belonged to corporations in which petitioner possessed no ownership
interest, and they were directly connected to the
fraudulent schemes in which those corporations participated. This case accordingly presents no question
as to whether the freezing of these assets denied petitioner’s claimed right to counsel of choice, nor
whether the failure to “return” the assets to petitioner
denied him due process.
The foregoing facts are by themselves reason
enough to deny the petition. But there are other reasons, too. Many others:
•

Petitioner argues that under the Sixth Amendment, he was entitled to a distribution of receivership assets for use in his criminal case,
but in the proceedings below, petitioner both
forfeited and explicitly waived any claims to receivership assets;

•

Petitioner never asserted, in the proceedings
below, any Fifth Amendment due process objection to the disbursement of the assets under
control of the receivership;

2
•

Petitioner nevertheless was afforded, and
availed himself of, an opportunity in 2017 to
visit lockers where certain physical assets were
stored to obtain any genuinely personal items;

•

Petitioner does not even purport to identify a
circuit conflict on the waived and non-presented question whether the receiver violated
due process by failing to “return” some of the
assets in the receivership;

•

The alleged conflict petitioner does identify
does not actually exist, and the cases he relies
on are not decisions of federal courts of appeal
or state courts of last resort; and

•

The only remedy petitioner seeks on his Sixth
Amendment claim is a distribution of receivership assets, but providing him those assets
would not remedy the alleged failure to allow
him his counsel of choice in the now-completed
criminal case.

For these reasons and for others identified by the
Government, the petition should be denied.
STATEMENT OF THE CASE
More than twenty years ago, petitioner engaged in
a scheme to use two different corporations to sell hundreds of millions of dollars in fraudulent promissory
notes to investors. To avoid detection of his scheme,
petitioner ensured that he was not listed as a shareholder of the corporations and that none of the corporations’ assets were titled in his name.
In 1999, petitioner was both criminally indicted
and civilly sued by the Government in connection

3
with this fraudulent scheme. The relevant aspects of
these parallel enforcement proceedings are described
below.
A. Initiation Of Parallel Enforcement Proceedings And Asset Freeze
On September 13, 1999, the U.S. Attorney’s Office
for the Southern District of New York obtained a warrant to arrest petitioner. He was subsequently criminally indicted for securities fraud, wire fraud, and
conspiracy to commit those crimes in connection with
his scheme to sell fraudulent promissory notes. See
Sealed Indictment, United States v. Armstrong, No.
99-cr-997 (S.D.N.Y. Sept. 29, 1999), ECF No. 5.
The same day the arrest warrant was issued, the
Securities and Exchange Commission (“SEC”) and the
Commodity Futures Trading Commission (“CFTC”)
filed separate civil suits against both petitioner and
the two corporations he used to perpetrate his fraud—
Princeton Economics International Ltd. (“PEIL”) and
Princeton Global Management Ltd. (“PGM”). See
Complaint, SEC v. PEIL, No. 99-cv-9667 (S.D.N.Y.
Sept. 13, 1999), ECF No. 1; Complaint, CFTC v. PGM,
No. 99-cv-9669 (S.D.N.Y. Sept. 13, 1999), ECF No. 1.
Immediately after filing those suits, the SEC and
CFTC moved to freeze the defendants’ assets and to
establish a receivership to manage the assets owned
by the corporate defendants. The district court
granted the motions and entered a temporary restraining order (later converted to a preliminary injunction), appointing Alan Cohen as receiver and giving him the authority to marshal the assets and property belonging to the corporate defendants and their

4
subsidiaries. See SEC v. PEIL, 84 F. Supp. 2d 443,
443 (S.D.N.Y. 2000). Cohen was succeeded by appointment of respondent Tancred Schiavoni on
July 16, 2019. See supra at ii.
B. Administration Of The Receivership
And Interim Distribution
Pursuant to the district court’s order, the receiver
began to collect the corporate defendants’ assets.
First, the receiver took control of the corporate defendants’ bank and brokerage accounts. C.A. Suppl.
App. SA-42. 1 All but one of those accounts were held
in the name of the corporate defendants and their
subsidiaries or affiliates—not petitioner. Id. 2 And petitioner was not a shareholder in any of those corporations. Id. at SA-29. Thus, petitioner—neither an
account holder nor even a shareholder in the account
holders—had no ownership interest in the bank and
brokerage accounts placed in the receivership.
In addition to these cash assets, the receiver also
took possession of several of the corporate defendants’
non-cash assets, including, among others, a beach
“C.A. Suppl. App.” refers to supplemental appendices filed
by the receiver in this appeal. See Supplemental Appendix, SEC
v. PEIL, No. 17-3572 (2d Cir. Oct. 10, 2018), ECF Nos. 134-136.
1

Only one account was purported to be denominated in petitioner’s name, and petitioner was invited to claim some or all
of the funds in that account. C.A. Suppl. App. SA-42 n.59. In
settling with the CFTC and receiver, petitioner explicitly agreed
in the Consent Order he signed to convey the balance of this alleged 401(k) account, which was funded by monies diverted from
noteholder accounts, to the receivership. See Consent Judgment
at 8-9, 14, CFTC v. PGM, No. 99-cv-9669 (S.D.N.Y. June 24,
2008), ECF No. 110.
2

5
house and multiple storage facilities. Id. at SA-50-56.
Like the bank and brokerage accounts, these noncash assets belonged to the corporate defendants and
their subsidiaries, not petitioner: the deed for the
beach house was issued in the name of one of the corporate defendants, id. at SA-51, and the storage facilities were leased in the name of one of the subsidiaries, id. at SA-55. 3
In 2001, the receiver filed a report with several
volumes of exhibits, documenting these efforts to collect the corporate defendants’ assets and providing an
inventory of the assets collected to that point. Id. at
SA-388-406. The report also used expert forensic accounting techniques to trace all of the assets held in
the receivership to the investors petitioner had defrauded—the Princeton noteholders. Id. at SA-412433.
After submitting the report, the receiver began to
negotiate with the defrauded investors and was ultimately able to broker a global settlement with them
on behalf of the corporate defendants. To effectuate
that settlement, the receiver moved in 2003 for authorization for an interim distribution of approximately $56 million of the corporate funds held in the
receivership. Id. at SA-5, SA-13.

The receiver also attempted to collect from petitioner approximately $15 million worth of rare coins, gold bullion bars
and coins, and various antiquities—all purchased with corporate
funds. Petitioner refused to produce these items after being ordered to do so, resulting in a lengthy incarceration for civil contempt. See Armstrong v. Guccione, 470 F.3d 89, 94-96 (2d Cir.
2006).
3

6
The district court held three separate hearings on
the receiver’s motion. Id. at SA-6. Although petitioner, along with his counsel, attended each hearing,
he never asserted a claim to, or introduced evidence
of, his personal ownership interest in the funds held
in the receivership. Id. at SA-8.
On January 12, 2004, the district court entered an
order authorizing the interim distribution. Id. at SA5-12. The court noted that, despite being given the
opportunity to do so, petitioner had not asserted a personal claim to the funds. Id. at SA-8. Nor had anyone
claiming to be a shareholder of the corporate defendants objected to the receiver’s motion. Id. Accordingly, the court approved the interim distribution,
finding that the funds distributed were “the exclusive
property of the Princeton Noteholders.” Id.
C. Guilty Plea And Settlement With Agencies
Two years after the interim distribution, on August 17, 2006, petitioner pleaded guilty to conspiracy
to commit securities, commodities, and wire fraud
pursuant to an agreement with the Government. See
Armstrong v. Guccione, 470 F.3d 89, 96 (2d Cir. 2006).
On April 10, 2007, the district court sentenced him to
60 months’ incarceration and three years’ supervised
release and ordered him to pay $80 million in restitution. See Final Judgment, United States v. Armstrong, No. 99-cr-997 (S.D.N.Y. Apr. 10, 2007), ECF
No. 150. With that sentence, petitioner would be released from prison in 2012 and would complete his
term of supervision in 2015.

7
Shortly after petitioner entered a guilty plea in his
criminal case, he settled his civil cases with the SEC
and CFTC. In June and July of 2008, the parties entered into, and the court approved, consent judgments
memorializing their settlement agreements. See Consent Judgment, CFTC v. PGM, No. 99-cv-9669
(S.D.N.Y. June 24, 2008), ECF No. 110 (“CFTC Consent Judgment”); Consent Judgment, SEC v. PEIL,
No. 99-cv-9667 (S.D.N.Y. July 22, 2008), ECF No. 435
(“SEC Consent Judgment”). As part of both agreements, petitioner explicitly waived his right to appeal.
CFTC Consent Judgment at 2, 4; SEC Consent Judgment at 4. He also agreed not to “hinder or delay the
actions of the receiver to seek and obtain approval of
a plan of distribution.” CFTC Consent Judgment at
4; SEC Consent Judgment at 6. And in the CFTC
Consent Judgment, petitioner expressly agreed that
the judgment would “release[] any and all claims, demands, rights and causes of action … that [petitioner]
in any capacity may now have or hereafter acquire
against ... the Court-appointed Receiver.” CFTC Consent Judgment at 2.
D. Final Distribution And Settlement With
Receiver Waiving Petitioner’s Claims
To Receivership Assets
On March 12, 2007, the receiver submitted a second report, again attaching several volumes of appendices in support. C.A. Suppl. App. SA-18-132. This
report, like the 2001 report, traced the assets held in
the receivership to the Princeton noteholders. Id. at
SA-56-62. It also provided an even more comprehensive inventory of the non-cash assets held in the receivership, including the items in the beach house and

8
the storage lockers. Id. at SA-41-56, SA-112-114, SA121-132.
Based on this report, on June 20, 2008, the receiver moved for an order authorizing a final plan of
distribution for the assets remaining in the receivership. Id. at SA-133-136. The court set a hearing date
and a “bar” date—a date before which any claims or
objections to the plan would need to be filed, or else
waived. Id. at SA-143-144, SA-188.
Petitioner’s counsel filed only a single claim before
the bar date—a claim for attorneys’ fees on their own
behalf and for unspecified personal property on petitioner’s behalf. Id. at SA-190-237. Shortly thereafter,
petitioner, his counsel, and the receiver entered into
a stipulated settlement agreement. As part of that
settlement, the receiver agreed to pay $900,000 of petitioner’s attorneys’ fees. Id. at SA-256. In exchange,
petitioner and his counsel agreed that they would
withdraw the claim, id., and that their right to submit
arguments or evidence in support of claims for fees
and allegedly personal property would be “extinguished with prejudice,” id. at SA-257. Petitioner
filed no other claim prior to the bar date.
On September 29, 2008, the district court held a
hearing on the final distribution plan at which interested parties were permitted to present evidence and
object to the plan. Id. at SA-265. Petitioner did not
object to the plan or offer any evidence suggesting the
assets to be distributed were his own.
The next day, on September 30, 2008, the court issued an order authorizing the final distribution plan.
The court noted that no claims had been filed (without
being withdrawn) prior to the bar date and found that

9
the assets in the receivership “represent[ed] property
originally taken from the Princeton Noteholders or
[were] the product of property originally taken from
the Princeton Noteholders.” 4 Accordingly, the court
approved the final distribution plan and authorized
the receiver to take any action necessary to implement the plan. Id. at SA-257. The court made clear
that any future claims against the receiver or the receivership property were “forever barred, estopped,
and permanently enjoined.” Id. at SA-270.
E. Petitioner’s Access To Storage Lockers
In 2017, the receiver, having distributed most of
the assets pursuant to the district court’s order, arranged for petitioner to inspect the contents remaining in the corporate defendants’ storage lockers in
New Jersey and Pennsylvania. Pet. App. 4. Even
though petitioner had waived his rights to any assets
remaining in the receivership, petitioner was invited
to claim any items from the storage lockers that he
alleged were personal, i.e., not acquired with corporate funds. C.A. App. A234. 5 Petitioner visited the
lockers on two different occasions and thanked the receiver for permitting him to “take whatever [he]
want[ed].” Id. at A253. Following his visits, petitioner requested that the remaining contents of the
lockers be shipped to Florida. See id. The receiver
refused, and petitioner made no further attempts to
This finding—contained in the final plan of distribution,
C.A. Suppl. App. SA-293—was expressly adopted by the court in
its order approving the distribution, id. at SA-269.
5 “C.A. App.” refers to the appendix petitioner filed in this
appeal. See Appendix, SEC v. PEIL, No. 17-3572 (2d Cir. July
11, 2018), ECF Nos. 105-106.
4

10
identify any allegedly personal property contained in
the storage lockers.
F. The Decisions Below
Shortly after permitting petitioner to access the
storage lockers, the receiver moved to wind up the receivership and to be discharged. Petitioner objected
to the receiver’s motion, arguing that the nearly 17year-old freeze of corporate assets in the civil case had
violated his Sixth Amendment rights by denying him
counsel of choice in his criminal case. He also asserted that the receiver had yet to return some unidentified personal property of his. He did not, however, contend that this alleged failure to return his
personal property violated his due process rights under the Fifth Amendment. See Opposition to Motion
to Authorize Case Closure, SEC v. PEIL, No. 99-cv9667 (S.D.N.Y. Aug. 31, 2017), ECF No. 490.
The district court granted the receiver’s motion
over petitioner’s objections. Pet. App. 10-13. Petitioner’s Sixth Amendment claim, the court reasoned,
amounted to a challenge to the final distribution plan
because judgment had long ago been entered in petitioner’s criminal case. But petitioner had waived his
right to make any such challenge by failing to object
to the plan prior to its 2008 approval. Pet. App. 12.
Moreover, the court found no basis in the record for
petitioner’s assertion that the receiver had failed to
return his personal property. Pet. App. 12.
Petitioner appealed the district court’s order, and
the receiver and the Government moved to dismiss
the appeal. They argued that to the extent petitioner

11
sought, as part of his Sixth Amendment claim, to challenge his criminal conviction and sentence, that challenge was not appropriate in the civil case. See Receiver’s Motion to Dismiss, SEC v. PEIL, No. 17-3572
(2d Cir. Dec. 20, 2017), ECF No. 30. If, on the other
hand, petitioner was simply seeking funds from the
receiver, then he had waived any such challenge by
failing to object to the final distribution plan and by
waiving his right to appeal in the civil cases. Id. at
18-25.
On April 11, 2018, the court of appeals dismissed
the appeal in part. The court declared four of petitioner’s arguments to be frivolous, dismissed them
from the appeal, Pet. App. 8-9, and later imposed
sanctions barring petitioner from filing further appeals without leave of court, see Sanctions Order, SEC
v. PEIL, No. 17-3572 (2d Cir. July 31, 2019), ECF No.
216. 6 The court allowed petitioner to proceed only in
challenging the receiver’s alleged failure to return petitioner’s personal property. Pet. App. 8-9. Petitioner
briefed that challenge, arguing that the receiver’s alleged failure to return his personal property violated
the terms of the consent judgments. As in the district
court, however, petitioner never argued that the receiver had violated his Fifth Amendment due process
Years before, petitioner had attempted to appeal his own
settlement with the SEC and CFTC and to recuse all the judges
of the Southern District of New York. The court of appeals issued orders rejecting those challenges as frivolous and warning
petitioner that further frivolous appeals would result in sanctions. Order, CFTC v. PGM, No. 08-cv-5899 (2d Cir. Apr. 10,
2009); Order, SEC v. PEIL, No. 08-cv-5902 (2d Cir. Apr. 10,
2009). The sanctions order in this appeal followed from that
prior order.
6

12
rights. See Appellant’s Brief, SEC v. PEIL, No. 173572 (2d Cir. July 11, 2018), ECF No. 107.
On April 23, 2019, the court of appeals affirmed,
holding that the district court did not abuse its discretion in authorizing case closure over petitioner’s objection. Pet. App. 5. According to the court of appeals,
the district court “reasonably found that the receiver
gave [petitioner] an adequate opportunity to reclaim
any personal possessions by giving [him] and his son
unrestricted access to take whatever they wanted
from the storage lockers, not limiting the time they
spent doing so, and refusing only [petitioner’s] demand to have the whole lot shipped to [him] in Florida, which would have caused further delay, expense,
and risk to the assets.” Pet. App. 5 (internal quotations omitted).
REASONS FOR DENYING THE PETITION
I.

THIS CASE DOES NOT RAISE EITHER OF
THE QUESTIONS PRESENTED

Petitioner presents two questions for review: (1)
“whether the constitutional right to counsel of choice
extends to cases where a criminal defendant’s assets
are frozen as part of a parallel civil enforcement action” and (2) “whether the failure to return untainted
personal property to a defendant violates the constitutional guarantee of due process.” Pet. i. Both questions depend on the twin premises that the assets
held in the receivership were owned by the “criminal
defendant[]” and were “untainted.” Because neither
premise is true here, neither Question Presented
bears any relevance to this case.

13
Petitioner’s first question seeks an extension of the
holding in Luis v. United States, 136 S. Ct. 1083
(2016), “that the pretrial restraint of legitimate, untainted assets needed to retain counsel of choice violates the Sixth Amendment.” Id. at 1088 (plurality
opinion). According to petitioner, that rule should apply not only where the defendant’s untainted assets
are frozen in his criminal proceeding, but also where
they are frozen in a parallel civil proceeding.
The rule announced in Luis, however, depends on
two essential factual predicates: the assets must be
“untainted” and must “belong[] to the defendant, pure
and simple.” Id. at 1090. In holding that the Government violated the defendant’s Sixth Amendment
right to counsel of her choice by freezing her untainted assets, the Luis plurality distinguished
United States v. Monsanto, 491 U.S. 600 (1989), which
upheld a pretrial asset restraint. Luis, 136 S. Ct. at
1087-88 (plurality opinion) (citing Monsanto, 491 U.S.
at 614). According to the plurality, Monsanto was distinguishable because the property there was
“tainted,” i.e., “the Government had probable cause to
believe [the property] was the proceeds of, or traceable to a crime.” Id. at 1091-92. And because “title to
those tainted assets” vested in the Government “as of
the time of the crime,” the defendants “consequently
had to concede that the disputed property was in an
important sense the Government’s”—not the defendants’—“at the time the court imposed the restrictions.” Id. Unlike in Monsanto, the plurality explained, a Sixth Amendment violation occurred in
Luis because the property there was “untainted” and
“belong[ed] to the defendant, pure and simple.” Id. at

14
1090. Accordingly, whether it extends to civil proceedings or not, the Luis rule applies only where the
assets at issue are both untainted and owned by the
defendant.
The same is true for the rule petitioner seeks in
his second Question Presented, which asks whether
“the failure to return untainted personal property to
a defendant violates the constitutional guarantee of
due process.” Pet i. By its terms, the question requires the property at issue to be the “untainted personal property” of the defendant. Petitioner himself
never suggests that the seizure of tainted property
not belonging to him would in any way implicate due
process concerns. Nor could he: this Court already
held in Monsanto that a pretrial restraint of tainted
assets does not constitute a Fifth Amendment due
process violation. See 491 U.S. at 614-16.
Both Questions Presented thus require the same
two predicate facts: the assets at issue must (1) belong to petitioner and (2) be untainted. Neither fact
is true here.
To start, the assets held in the receivership never
belonged to petitioner. In the several multi-volume
reports filed with the court, the receiver described in
detail all of the assets that he seized and transferred
to the receivership. C.A. Suppl. App. SA-41-56 (2007
report describing assets seized); id. at SA-388-406
(2001 report describing same). The cash assets, including bank and brokerage accounts, all were “denominated in the names of the [corporate defendants]
and their subsidiaries and affiliates.” Id. at SA-42.
“None of [those accounts] were denominated in the

15
name of [petitioner] or family members of [petitioner].” Id. Similarly, the non-cash assets—including the storage lockers and beach house—“all were
purchased with funds from corporate accounts,” not
from any of petitioner’s personal accounts. Id.
Petitioner has no basis for claiming the corporate
defendants’ assets as his own: as the receiver reported to the district court, petitioner never claimed
to be a shareholder of those corporations nor did he
claim to have any interest in them. See id. at SA-29.
He accordingly has no personal ownership interest in
the assets. 7
In addition to being owned by other entities, all of
the assets held in the receivership were tainted—that
is, traceable to the proceeds of the criminal offense.
As part of his efforts, the receiver sought to authorize
two distributions of the assets he held—one interim
and one final. Each time, the receiver submitted
multi-volume reports in support of his proposed plans
of distribution. Those reports used expert forensic accounting techniques to trace all of the assets held in
the receivership to the investors who were the victims
of the promissory note fraud. See id. at SA-18-132 (report prior to final distribution); id. at SA-373-439 (report prior to interim distribution). In approving the
interim distribution, the district court explicitly found
that the funds distributed were “the exclusive property of the Princeton Noteholders.” Id. at SA-8. And
again in 2008, the district court approved the final

Indeed, an essential element of petitioner’s fraud was to
separate himself from the companies where assets were deposited.
7

16
distribution, finding that the assets in the receivership “represent[ed] property originally taken from the
Princeton Noteholders or [were] the product of property originally taken from the Princeton Noteholders.” Id. at SA-269, SA-293. Petitioner asserted no
objection at the time to these findings.
The foregoing factual conclusions—all amply supported by the evidence and affirmed by the court of
appeals—are of course binding at this stage of the proceeding. See Exxon Co. v. Sofec, Inc., 517 U.S. 830,
841 (1996); United States v. Johnston, 268 U.S. 220,
227 (1925). And they flatly contradict the factual assertions on which petitioner rests his case for certiorari. According to petitioner’s account, the receiver
seized untainted assets belonging to him, auctioned
off that untainted personal property, used the proceeds to make the distributions to the noteholders,
and failed to return personal property that was not
auctioned off. See, e.g., Pet. 9, 14, 24, 28. Nothing in
that account is accurate. It is enough that petitioner
fails to cite any evidence supporting it, see CBOCS
West, Inc. v. Humphries, 553 U.S. 442, 461 n.2 (2008)
(rejecting claim because “respondent cites no record
evidence”), but the more serious problem is that the
controlling factual findings establish the opposite:
the only assets seized by the receiver were owned by
corporate entities distinct from petitioner and the
seized assets were all connected to the criminal offenses.
In an effort to escape the overwhelming record
against him, petitioner complains that he “had no recourse to protest” these findings and that “objections

17
to the asset freeze fell on deaf ears in the civil actions.” Pet. 26. Not so. Petitioner was afforded several opportunities to protest both the interim and final distributions of assets within his civil case. There
were at least three hearings prior to the interim distribution and one before the final distribution—all attended by petitioner and his counsel—at which the
district court permitted interested parties to object to
the receiver’s findings or to assert claims to the assets. C.A. Suppl. App. SA-6 (interim distribution); id.
at SA-265 (final distribution). Prior to the final distribution, the court set a bar date, making clear that
any claim not filed in advance of that date would be
waived. Id. at SA-143-144, SA-188. Petitioner did not
avail himself of these opportunities to rebut the receiver’s extensive evidence tracing the assets to the
defrauded noteholders. And the one time petitioner
did assert a claim to the receivership assets (through
his counsel prior to the final distribution), he withdrew that claim before the bar date and agreed explicitly to waive any such claim in the future. Id. at SA256-257.
*

*

*

In sum, both of petitioner’s Questions Presented
require that the assets held in the receivership be
owned by petitioner and be untainted. Because neither fact is true here, the Questions Presented are irrelevant to this case. The petition should be denied.
II. NEITHER QUESTION PRESENTED WAS
PROPERLY PRESERVED BELOW
In addition to being irrelevant on the facts of this
case, the issues petitioner raises were not properly

18
preserved in the proceedings below and hence are forfeited here. See United States v. Stitt, 139 S. Ct. 399,
407 (2018) (this Court is “a court of review, not of first
view”); Clingman v. Beaver, 544 U.S. 581, 598 (2005)
(“We ordinarily do not consider claims neither raised
nor decided below.”); United States v. Williams, 504
U.S. 36, 41 (1992) (declining to address issue “not
pressed or passed upon below”).
At no point in any proceeding below did petitioner
argue that the receiver violated his Fifth Amendment
due process rights by failing to “return” property to
him. Petitioner instead focused solely on the consent
judgments, contending that the receiver’s conduct violated those orders. The courts below rightly rejected
that argument, and petitioner does not repeat it here.
The new Fifth Amendment Due Process Clause argument he does make is forfeited.
Petitioner also failed to preserve his Sixth Amendment argument that Luis applies in civil enforcement
proceedings, which is fundamentally a claim that he
was entitled to a distribution of the receivership’s assets for use in defending his criminal case. As the
courts below found, petitioner both forfeited and affirmatively waived that argument. Pet. App. 8, 12.
First, petitioner failed to assert any objection to
the final distribution plan before it was approved in
2008. Pet. App. 12. As described above, supra at 7-8,
when the receiver proposed a final plan for distribution of assets, the district court set a bar date, before
which any claims to the receivership assets would
need to be filed, or else waived. C.A. Suppl. App. 143144, SA-188. Petitioner (through his counsel) withdrew the only claim that he filed before the bar date

19
and so waived any future claims he may otherwise
have had. Id. at SA-267.
Second, even beyond that forfeiture, petitioner
also explicitly agreed in settlement agreements with
the SEC, CFTC, and the receiver that he would forgo
any further claims to the receivership assets. Pet.
App. 8. In his agreements with the SEC and CFTC,
petitioner waived his right to appeal and agreed not
to “hinder or delay” the receiver’s attempts to distribute the remaining assets. CFTC Consent Judgment
at 2, 4; SEC Consent Judgment at 4, 6. He also explicitly agreed in the CFTC Consent Judgment to “release[] any and all claims, demands, rights and causes
of action … that [he] in any capacity may now have or
hereafter acquire against ... the Court-appointed Receiver.” CFTC Consent Judgment at 2.
Petitioner then entered into a settlement agreement with the receiver himself. There, in exchange
for $900,000 in attorneys’ fees, petitioner agreed that
his right to submit arguments or evidence in support
of claims for attorneys’ fees and any alleged personal
property would be “extinguished with prejudice.”
C.A. Suppl. App. SA-257; see Pet. App. 4.
Finally, despite petitioner’s affirmative waiver of
any remaining claims to the assets held in the receivership, the receiver still arranged for petitioner to inspect the lockers and invited him to claim anything
personal to him. C.A. App. A239-41. Petitioner was
given unrestricted access to the storage lockers for
whatever amount of time he needed and was permitted, as petitioner acknowledged, to “take whatever
[he] want[ed],” id. at A253. The receiver refused pe-

20
titioner only when he demanded that the entire contents of the lockers be shipped to Florida. See id. According to petitioner, allowing him repeated access to
the lockers and opportunities to remove whatever he
wanted from those lockers was not enough: the receiver also was required to provide petitioner with a
“comprehensive inventory of all assets seized pursuant to the 1999 freeze order and subsequent injunction.” Pet. 29. But, contrary to petitioner’s assertion,
the receiver actually did provide him two inventories:
the receiver furnished him with detailed lists of property in the 2001 interim report and again in the final
report in 2007. C.A. Suppl. App. SA-41-56, SA-112114, SA-121-132, SA-388-406.
Petitioner thus triply waived any claim that he
was entitled to a distribution of receivership assets
under the Sixth Amendment. The courts below correctly denied petitioner a fourth bite at the apple.
III. THERE IS NO RELEVANT JUDICIAL CONFLICT ON EITHER QUESTION PRESENTED
In addition to being irrelevant and unpreserved,
neither Question Presented implicates a conflict
among courts of appeals or state courts of last resort.
On the due process question, petitioner does not even
purport to identify a judicial conflict of any kind. As
to the question whether Luis applies in parallel civil
enforcement proceedings, petitioner asserts that the
decision below deepens an existing conflict among
courts. Pet. 22-25. It does not.
As an initial matter, as described above, because
petitioner both forfeited and affirmatively waived his

21
rights to challenge the distribution of receivership assets, neither court below addressed the merits of the
question whether his lack of access to those assets violated his Sixth Amendment rights. Given the absence of an opinion addressing the merits, petitioner
cites a 2003 unpublished order in petitioner’s criminal case in support of his theory that this civil case
deepened an existing conflict among lower courts.
Pet. 24 (citing Order, United States v. Armstrong, No.
99-cr-997 (S.D.N.Y. June 20, 2003), ECF No. 82).
That order—taken from a completely different case—
has little bearing here, and petitioner in any event
mischaracterizes it. Nowhere in that order does the
district court discuss the application of Luis or Monsanto in civil enforcement proceedings, let alone announce a holding in conflict with other courts. Instead, that order rejects petitioner’s request for a stay
in his civil case, explaining that “the motion for a stay
should be made in the case in which the order sought
to be stayed was entered, not in the present criminal
case.” Order at 1, United States v. Armstrong, No. 99cr-997 (June 20, 2003), ECF No. 82.
Leaving that irrelevant order aside, the remaining
cases cited by petitioner do not establish any judicial
conflict, much less a conflict meriting review. Petitioner relies almost entirely on district court decisions, citing only one decision from a state court of last
resort—Estate of Lott v. O’Neill, 165 A.3d 1099 (Vt.
2017)—with a holding on the merits of the Sixth
Amendment question petitioner seeks to raise. 8 Disagreement mainly involving district court decisions is
Petitioner cites one court of appeals merely observing that
“[d]istrict courts in this circuit have found that a defendant may
8

22
normally no basis for certiorari, and here there is not
even disagreement.
According to petitioner, Lott and a decision from
the Northern District of California—United States v.
Feathers, 2016 WL 7337518 (N.D. Cal. Dec. 19,
2016)—have held that Luis does not apply to parallel
civil proceedings, ostensibly in conflict with several
other district court decisions applying Luis in civil
cases. Pet. 23-25 (citing FTC v. Johnson, 2015 WL
8751693 (D. Nev. Dec. 14, 2015); SEC v. McGinn,
2012 WL 1142516 (N.D.N.Y. Apr. 4, 2012); CFTC v.
Walsh, 2010 WL 882875 (S.D.N.Y. Mar. 9, 2010)). But
Feathers and Lott did not adopt a categorical rule at
odds with the other cases petitioner cites. They instead declined to apply Luis for procedural reasons
specific to their circumstances.
In Feathers, the district court declined even to address the merits of the defendant’s Sixth Amendment
claim. The court entered summary judgment for the
Government in a civil case against the defendant,
finding that the defendant had committed civil fraud
and that he had no ownership interest in the funds
held in the receivership. 2016 WL 7337518, at *6-7.
The defendant appealed that ruling in his civil case,
and while the civil appeal was pending, moved in his
criminal case for the release of the same receivership
funds. Id. at *7. The court in the criminal case held

also have the right to a Monsanto-like hearing in the civil context.” Pet. 25 (quoting United States v. Bonventre, 720 F.3d 126,
130 (2d Cir. 2013)). The Bonventre court did not endorse the
lower courts’ equivocal expressions of that principle; it simply
assumed the principle exists and considered how it applies.

23
that it did not have jurisdiction to consider the defendant’s motion. Id. The valid notice of appeal in
the civil case, the court reasoned, divested the court
of jurisdiction to reconsider the issues resolved in that
case and pending on appeal—namely, whether the defendant had an ownership interest in the funds held
in the receivership. Id. Accordingly, the court concluded that it lacked jurisdiction and declined to address the merits of the criminal defendant’s Sixth
Amendment claim, without ever stating or implying
that Luis cannot apply in a civil enforcement proceeding.
Lott is similarly tied to the specific facts of that
case. In Lott, a private plaintiff brought a civil wrongful death action against a defendant while a criminal
case against that same defendant was pending. 165
A.3d at 1101. The civil plaintiff obtained an attachment freezing the defendant’s assets, including funds
the defendant had set aside for her criminal defense.
Id. The defendant challenged the attachment, arguing that it ran afoul of Luis. Id. The court rejected
the defendant’s challenge, but not because Luis was
categorically inapplicable in civil proceedings. The
court instead held that Luis does not apply where—
as in Lott—a private plaintiff, rather than the Government, had initiated and prosecuted the parallel
civil proceeding. That holding does not conflict in any
way with the cases petitioner identifies, all of which
involve civil enforcement proceedings initiated by the
Government. Pet. 24-25 (citing cases initiated by the
CFTC, FTC, SEC, and DOJ).
Neither Question Presented, in short, implicates a
judicial conflict requiring resolution by this Court.

24
IV. DISTRIBUTION OF RECEIVERSHIP ASSETS WOULD NOT REMEDY THE SIXTH
AMENDMENT CLAIM PETITIONER ASSERTS
The only relief petitioner seeks on his Sixth
Amendment claim is a distribution of assets from the
receivership. That relief, however, does not and cannot remedy the injury he asserts, i.e., the alleged deprivation of his right to counsel in his criminal case.
Petitioner pleaded guilty in his criminal case in 2007,
was released from custody in 2012, and finished his
term of supervised release in 2015. Given that petitioner is no longer in custody and has already served
his entire sentence, the only way to remedy any deprivation of petitioner’s right to counsel at this point
would be for petitioner to attempt to withdraw his
guilty plea and vacate his conviction.
But petitioner does not seek that remedy here. He
instead attempts to claw back funds the receiver has
already distributed to the defrauded investors. Even
assuming that petitioner would have used those assets to pay for counsel in his criminal case while that
case was ongoing, he cannot possibly do so now given
that he finished serving his criminal sentence more
than four years ago. 9

Moreover, any attempt by petitioner to seek the appropriate remedy—withdrawal of his guilty plea—would require this
Court to determine whether Luis, which was decided in 2016,
applies retroactively to petitioner’s criminal conviction, which
became final long before that. That question was not considered
below and has been fully addressed by only one court of appeals,
9

25
CONCLUSION
The petition for a writ of certiorari should be denied.
Respectfully submitted,
TANCRED SCHIAVONI
O’MELVENY & MYERS LLP
Times Square Tower
7 Times Square,
New York, N.Y. 10036
(212) 326-2000

JONATHAN D. HACKER
(Counsel of Record)
jhacker@omm.com
ANNA O. MOHAN*
O’MELVENY & MYERS LLP
1625 Eye Street, N.W.
Washington, D.C. 20006
(202) 383-5300
*Admitted only in Virginia;
supervised by principals of the firm

Counsel for Receiver Tancred Schiavoni
February 2020

which concluded that Luis did not warrant retroactive application. See United States v. Hopkins, 920 F.3d 690, 701 (10th Cir.
2019).

